                                              u.s. SMAll BUSINESS ADMINISTRATION
                                                    OFFICE OF INSPECTOR GENERAL


                                                                       ADVISORY MEMORANDUM
                                                                       REPORT No. 12-11R

DATE: 	             MARCH   23, 2012

To: 	               John A. Miller
                    Director, Office of Financial Program Operations

SUBJECT: 	          High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and
                    Improved Quality Control at the National Guaranty Purchase Center

This is the final in a series of memorandums related to our audit of twenty-five purchased 7(a)
Recovery Ace loans. This memorandum summarizes the work completed on the twenty-five
loans. It also serves to inform you of a finding not previously reported regarding the need for an
increased degree of scrutiny and improved quality control on high-dollar early-defaulted loans
at the National Guaranty Purchase Center (NGPC). This memorandum also includes an /lather
Matter" section describing a deficiency we identified in one loan, which was not previously
reported.

The objective of the audit was to determine whether purchased 7(a) Recovery Act loans were
originated, closed, and purchased in accordance with Small Business Administration (SBA) rules
and regulations and commercially prudent lending standards. For this audit, we judgmentally
selected the twenty-five 7(a) Recovery Act loans approved for $500,000 or more that had been
purchased as of September 3D, 2010, and which defaulted within a short period of time after
they were made. The total approved amount for these loans was approximately $27 million,
and the SBA purchased its guaranteed share of the principal loan balances for approximately
$21 million.

In meeting the objective, we reviewed all origination, closing, and purchase actions as
documented in the SBA and lender loan files. We also reviewed information in the SBA's Loan
Accounting System and analyzed loan data. Furthermore, we interviewed current and former
SBA officials at the NGPC to gain an understanding of the purchase review process, including the
quality control review of early-defaulted loans. To assess the internal controls relevant to our
audit objective, we reviewed the SBA's policies and procedures regarding loan origination,
closing, and guaranty purchase. We conducted this audit between November 2010 and
December 2011 in accordance with Generally Accepted Government Auditing Standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




1   American Recovery and Reinvestment Act of 2009, Public Law 111-5
Summary of Work Completed

Overall, we found that the SBA and its lenders originated, closed, and purchased 11 of the 25
sampled loans in accordance with SBA rules and regulations and commercially prudent lending
standards. Material deficiencies, however, were identified in 14 of the 25 early-defaulted loans
                                                                    2
selected for audit. These deficiencies resulted in questioned costs or recoverable guaranty
          3
payments totaling approximately $10.7 million.4

Of these 14 loans, the Office of Inspector General (OIG) identified material deficiencies in 10
loans while the SBA identified material deficiencies in four loans during its post purchase
reviews (see Appendices I and II for a summary of the deficiencies identified on these loans).
We previously reported our findings on 9 of the 10 loans in 2 separate audit reports (ROM 11-05
and ROM 11-06)5 and our finding on the tenth loan is discussed below in the /lather Matter"
section of this report. Recoveries totaling approximately $2.7 million are still outstanding for
two of the four loans with deficiencies identified by the SBA. As a result, we recommended that
the SBA notify the OIG of any denial, repair,6 or withdrawal of the purchase request by the
lender on those loans to              [Ex. 4]              and               [Ex. 4]         The
previously issued audit reports included recommendations to recover the questioned costs
identified on 9 of the 10 loans with OIG identified deficiencies. Our second audit report, ROM
11-06, also included recommendations to correct OIG identified SBA origination deficiencies.
These reports did not, however, include recommendations to address deficiencies in the NGPC's
purchase process, which are discussed herein.

The NGPC was responsible for the purchase reviews on 9 of the 10 loans for which the OIG
                                 7
identified material deficiencies. The NGPC either made a purchase error or did not identify the
deficiencies during its guaranty purchase reviews on six of the nine loans, resulting in improper
payments totaling approximately $3.3 million. We noted that loan specialists did not always
review high-dollar early-defaulted loans with the level of scrutiny necessary to identify all
material deficiencies. Due to the high number of deficiencies identified and the resulting
improper payments, we recommended that the SBA establish a specialized early default
purchase review unit at the NGPC.

The SBA incorporated a quality control review process into its purchase review process for early­
defaulted loans in response to our draft report for ROM 11-05. This quality control review
process began on May 9, 2011 and ended on August 9, 2011. We determined, however, that


2    For purposes of this memorandum, "questioned costs" are defined as costs questioned by the OIG, which were incurred as a
     result of material origination, closing, and purchase deficiencies made by lenders or the SBA.
3    For purposes of this memorandum "recoverable guaranty payments" are defined as amounts that SBA has identified during
     post purchase reviews that should be recovered from the lender due to the lender's failure to handle a loan in a prudent
     manner or in compliance with SBA loan program requirements.
4    Rounded to the nearest hundred thousand.
S    As part of this audit, we previously issued ROM 11-05, Material Deficiencies Identified in Four 7(0) Recovery Act Loans
     Resulted in $3.2 Million of Questioned Costs, June 29, 2011; and ROM 11-06, Material Deficiencies Identified in Five 7(0)
     Recovery Act Loans Resulted in $2.7 Million of Questioned Costs, August 22, 2011.
6   The term "repair" means an agreement between SBA and a 7(a) lender as to a specific dollar amount to be deducted from
     the funds SBA pays on the lender's guaranty in order to fully compensate SBA for an actual or anticipated loss caused by the
     lender.
7   The purchase review on the tenth loan to              [Ex. 4]                was performed at the SBA's Fresno Loan Servicing
     Center.

                                                                2

this process did not evaluate lender compliance with SBA eligibility and use of loan proceeds
requirements. To address this gap in its quality control process, we recommended that the
NGPC expand the scope of its quality control reviews of early-defaulted loans.


Finally, we also recommended that the SBA seek recovery of $15,188 on the tenth loan with an
OIG identified use of proceeds deficiency, which is presented in the IIOther Matter" section of
this report.

A draft copy of this memorandum was provided to the SBA for comment. The SBA agreed or
partially agreed with all of the recommendations and made comments, proposed actions, or
took actions that were responsive to OIG recommendations.

Background

The Recovery Act provided the SBA with $730 million to expand the Agency's lending and investment
programs, create new programs to stimulate lending to small businesses, and conduct oversight of
these programs. Of the $730 million received, $375 million was authorized for the SBA to (1) eliminate
or reduce fees charged to lenders and borrowers for 7(a) and 504 loans, and (2) increase its maximum
                                                    8
loan guaranty to 90 percent for eligible 7(a) loans. The Recovery Act and Office of Management and
Budget guidance encouraged Offices of Inspectors General to conduct oversight of potential risks posed
by Recovery Act programs implemented by their respective agencies. Accordingly, we conducted this
audit due to concerns that (1) some lenders would not exercise due diligence in originating and closing
loans given the 90 percent SBA guaranty reduced lender risk, and (2) the SBA would not properly
underwrite some loans given the higher loan demand and resource constraints.

The SBA is authorized under Section 7(a) of the Small Business Act to provide financial assistance
to small businesses in the form of government-guaranteed loans. The SBA's 7(a) loans are made
by participating lenders under an agreement to originate, service, and liquidate loans in
accordance with SBA's rules and regulations and prudent lending standards. Some 7(a) loans
are made by lenders using delegated authority, which undergo very limited review by SBA prior
to loan disbursement. Others are subject to more extensive underwriting and eligibility review
and approval by the SBA before the loan is disbursed. When a loan goes into default, the SBA
will review the lender's actions on the loan to determine whether it is appropriate to pay the
lender the guaranty (which SBA refers to as a guaranty IIpurchase"). Based on the number of
deficiencies we identified on early-defaulted loans in this audit which were not identified in
purchase reviews performed by the NGPC, the SBA implemented a process in which early­
defaulted loans may also be randomly selected for independent quality control reviews prior to
                                                                9
completion of the guaranty purchase. Under SBA regulations the SBA is released from liability
on the guaranty, in whole or in part, if the lender fails to comply materially with any SBA loan
program requirement or does not make, close, service or liquidate the loan in a prudent
manner.

For certain loans, as authorized by the SBA on a case-by-case basis, lenders may sell the
guaranteed portion of a loan to an investor on SBA's secondary market any time after the lender
disburses the loan. If such a loan subsequently goes into default, the SBA is unconditionally


8   The maximum guaranty for SBAExpress loans remained at 50 percent.
9   13 Code of Federal Regulations (CFR) § 120.524.

                                                            3

obligated to pay the guaranty to the investor. However, the SBA will conduct what is called a
IIpost purchase review" to identify lender imprudence or noncompliance with SBA loan program
requirements, and seek repayment of the guaranty from the lender if material problems are
found. Early-defaulted loans that were sold on the secondary market may also be randomly
selected for a quality control review prior to completion of the post purchase review.

Results


High-Dollar Early-Defaulted Loans Require an Increased Degree of Scrutiny and
Improved Quality Control at the NGPC

Rigor of Purchase Reviews at the NGPCfor High-Dol/ar Early-Defaulted Loans Can be Improved


Based on our review of loan files and interviews with current and former NGPC officials during
the course of this audit, we determined that the NGPC does not always review high-dollar early­
defaulted loans with the degree of scrutiny necessary to identify all material deficiencies.

                              1o
According to SBA procedures for early-defaulted loans, the SBA must review the lender's
purchase package with the IIhighest degree of scrutiny." Additionally, the recommending official
must determine whether the lender's failure to make or close the loan in accordance with SBA
requirements or prudent lending practices allowed or contributed to the early default. If the
SBA purchase review indicates that the lender's actions or omissions resulted in a material loss
to the SBA, repair or denial of the guaranty is appropriate.

The NGPC was responsible for the purchase reviews on 9 of the 10 loans we found to have
material deficiencies. The NGPC made a purchase error and did not identify material eligibility,
equity injection and use of proceed deficiencies on six of the nine loans. These errors resulted
in improper payments totaling approximately $3.3 million. The six loans are annotated with an
asterisk in Appendix I. For the remaining three loans that we found to have deficiencies, the
                                                              ll
NGPC either had not yet conducted its post purchase review or the deficiencies were made by
the SBA in approving the loans and therefore were not required to be evaluated during
purchase review.

We interviewed nine current and former NGPC loan specialists and supervisory loan specialists
to discuss the process for conducting purchase reviews and determine why errors were made or
material lender deficiencies were not identified during purchase review. Most of these NGPC
loan specialists were either associated with one of the nine problem loans identified in this audit
or to loans with similar deficiencies identified in previous audits. Every loan specialist we spoke
to described the NGPC as a IIproduction facility." We found that, generally, most of the loan
specialists felt that the production standards were reasonable based on the lIexpectations" of
the NGPC. Some indicated, however, that there was pressure to make timely decisions and not
enough time to complete an in-depth review, especially for those with underwriting
backgrounds. Loan specialists stated it would take much more time to perform the level of



10   Standard Operating Procedures (SOP) 50 51 3, Loan Liquidation, Chapter 22. 

11   The SBA's post purchase review on two loans fully agreed with our findings and recommendations to recover 

     $543,946.

                                                               4

review necessary to identify all material deficiencies and informed us that the degree of scrutiny
applied to early-defaulted loans is the same regardless of loan size.

Loan specialists told us that they did not receive formal training when they started reviewing
purchases; they only received on-the-job training by completing purchase reviews and receiving
feedback from supervisory loan specialists. Based on the loan specialists' statements, however,
we question the quality of the on-the-job training. Specifically, one loan specialist stated that
supervisors had varying degrees of experience and did not consistently interpret SBA's policies
and procedures. Additionally, a supervisory loan specialist stated that the supervisors did not
have time to train the loan specialists assigned to them. Furthermore, when supervisory loan
specialists explained their responsibilities to us, it was clear that each applied a different level of
thoroughness when reviewing and approving the loan specialists' purchase review decisions.

For two of the loans we identified with deficiencies, the cognizant loan specialists were not
aware of the applicable program requirements, which caused them to miss the deficiencies.
For two other loans, the cognizant loan specialists were not fully aware of their responsibilities
in reviewing particular compliance areas and therefore, missed the deficiencies.

Based on these interviews, we determined that errors were made and material lender
deficiencies were not identified on the high-dollar early-defaulted loans due to the focus on
production at the NGPC, a lack of training, and the loan specialists' unfamiliarity with SBA
program requirements and purchase review responsibilities.

When asked how early-defaulted loans are reviewed with the IIhighest degree of scrutiny,"
NGPC management stated that additional documentation is obtained and reviewed. This
documentation includes the lender's credit memorandum, support for equity injection, and
verification of financial information with Internal Revenue Service (IRS) tax transcripts. While
our audit found that the NGPC is obtaining this additional documentation for early-defaulted
loans, our analysis of loan files and interviews with loan specialists demonstrate that loan
documentation in general is not reviewed with the level of scrutiny necessary to identify all
material deficiencies on high-dollar early-defaulted loans.

The NGPC's Quality Control Review Process for Early-Defaulted Loans Needs Improvement

In response to our first audit report (ROM 11-05), which identified material lender
noncompliance with equity injection and IRS tax verification requirements, the NGPC
incorporated a temporary quality control review of early-defaulted loans into its purchase
review process. This quality control review process began on May 9, 2011 and ended on
August 9, 2011. The purpose was to provide the SBA with reasonable assurance that the
purchase process was performing as intended and minimizing improper payments. During this
90-day period, the NGPC quality control team reviewed 183 early-defaulted loans for
compliance with equity injection and IRS tax verification requirements. The NGPC identified
nine loans with deficiencies, of which eight were resolved through the lenders providing
additional documentation. For the remaining loan, the lender was unable to resolve the
deficiency and subsequently released the SBA from liability, resulting in a cost savings of
$102,314.




                                                       5

Following the completion of the 90-day review, SBA officials stated they would continue to
perform the early default quality control reviews on a random basis as part of the NGPC's
purchase review process. We determined, however, that the NGPC's review checklist does not
require an evaluation of eligibility and the use of loan proceeds to verify compliance with SBA
rules and regulations. Our audit identified deficiencies on 4 of the 25 early-defaulted loans
where the NGPC purchase review did not identify lender noncompliance with SBA eligibility or
                                12
use of proceeds requirements. In response to our previous reports, the SBA agreed with our
findings on three of these loans, which resulted in questioned costs of $1. 7 million. The
deficiency on the fourth loan resulted in questioned costs of $15,188 and is presented below.
These findings demonstrate that the scope of the early default quality control reviews should be
expanded to include a thorough evaluation of eligibility and use of proceeds, as these
deficiencies would not have been identified under the current process.

An additional concern regarding the NGPC's assessment of the quality and accuracy of lender
underwriting was identified during this audit. Specifically, we are concerned that the NGPC's
limited review of lender underwriting is not consistent with statutory and regulatory authority
and is contrary to SBA procedures. This issue will be the subject of a separate limited scope
review, which is currently being completed.

Other Matter - Ineligible Use of Proceeds on One Loan


We identified a deficiency on a loan to                  [Ex. 4]                    made by
Pacific Mercantile Bank, which resulted in a $15,188 improper payment that should be
recovered. As a lender in the Preferred Lender Program (PLPj, Pacific Mercantile Bank was
permitted to process, close, service, and liquidate its loans with limited documentation and
review by the SBA.

On April 2, 2009, using PLP procedures, the lender approved an $810,000 loan to the borrower
to payoff outstanding debt and for closing costs. Pacific Mercantile Bank disbursed this loan on
April 13, 2009 and the borrower defaulted approximately six months later on October 15, 2009.
Therefore, this loan qualifies as an early-defaulted loan in accordance with SBA policy. The SBA
completed a purchase review, and on May 10, 2010, purchased the principal guaranty for
$726,561.

Our audit determined that the lender disbursed a portion of the loan proceeds for an ineligible
                                         13
purpose. According to SBA procedures, loan proceeds may not be used to pay delinquent IRS
withholding taxes, sales taxes, or other funds payable for the benefit of others. The lender
disbursed $16,875 of loan proceeds to payoff a federal tax lien. The SBA guaranteed portion of
these loan proceeds was $15,188. The federal tax lien notice found in the loan file indicated the
lien resulted from the nonpayment of payroll withholding taxes. Therefore, this portion of the


12   See Appendix I: Loans with Material Deficiencies Identified by the Office of the Inspector General (OIG), loan
     numbers [Ex. 4]             [Ex. 4] , [Ex. 4] and [Ex. 4] . Loan numbers [Ex. 4] and                       [Ex. 4]
     also had eligibility or use of proceeds deficiencies, but the NGPC was not responsible for identifying these
     deficiencies prior to our audit. For one of these loans, the deficiency occurred during the SBA loan approval and
     therefore, was not required to be evaluated during the purchase review. For the second loan, the NGPC had not
     completed its post purchase review prior to our audit and therefore, did not have the opportunity to identify the
     deficiency.
13   SOP 50 10 5(Al Lender and Development Company Loan Programs.

                                                                  6

use of proceeds was ineligible. The lender should not have disbursed the funds for this use and
the SBA should not have purchased this portion of the guaranty. The SBA should recover an
improper payment of $15,188 based on the deficiency identified above.

Conclusion


The material deficiencies identified in 14 of the 25 purchased 7(a) Recovery Act loans selected
for audit resulted in questioned costs or recoverable guaranty payments totaling approximately
$10.7 million.

Loan specialists at the NGPC made a purchase error and did not detect material lender
                                                                               14
deficiencies on six of the nine NGPC loans in which we identified deficiencies. Errors were
made due to the focus on production at the NGPC, a lack of training, and loan specialists'
unfamiliarity with SBA program requirements and purchase review responsibilities, which
resulted in improper payments totaling approximately $3.3 million. The inadequate purchase
reviews performed by the NGPC and the resulting improper payments demonstrate that high­
dollar early-defaulted loans pose a significant risk of loss to the SBA.

Additionally, the limited scope of the quality control review process for early-defaulted loans
did not evaluate compliance with SBA eligibility and use of loan proceeds requirements.
Therefore, this process did not provide the SBA with reasonable assurance that the loan
purchase process is performing as intended.

Recommendations


We recommend that the Director, Office of Financial Program Operations (OFPO):

1. 	 Notify the OIG of any denial, repair or withdrawal of the guaranty on the loan made to
              [Ex. 4]             which was reviewed by the SBA and warrants a possible recovery
     of $1,336,089, plus interest.

2. 	 Notify the OIG of any denial, repair or withdrawal of the guaranty on the loan made to
            [Ex. 4]         which was reviewed by the SBA and warrants a possible recovery of
     $1,330,708, plus interest.

3. 	 Establish a specialized unit of well-trained, highly experienced loan specialists to perform
     purchase reviews with the level of scrutiny necessary to identify all material deficiencies on
     early-defaulted loans approved for $500,000 or more.

4. 	 Expand the scope of the NGPC quality control reviews of early-defaulted loans to include a
     thorough review of eligibility and use of proceeds.

5. 	 Seek recovery of $15,188, plus interest, from Pacific Mercantile Bank on the guaranty paid
     by the SBA for the loan to [Ex. 4]




14   The six loans include the loan to Refrigerant Exchange Corp, which is presented as an Other Matter in this memorandum.

                                                                7

Agency Comments and Office of Inspector General Response


On February 16, 2012, we issued a draft of this memorandum and provided it to the SBA for
comment. On March 19, 2012, the SBA provided written comments, which are summarized
below and contained in their entirety in Appendix III. The SBA agreed or partially agreed with all
of the recommendations. The SBA's comments, proposed actions, and actions taken were
responsive to the recommendations.

Recommendation 1


Notify the OIG of any denial, repair or withdrawal of the guaranty on the loan made to
   [Ex. 4]          which was reviewed by the SBA and warrants a possible recovery of
$1,336,089, plus interest.

Management Comments


The SBA fully agreed with our recommendation. However, the SBA stated that servicing of the
loan was assumed by the FDIC after the originating lender was closed and placed into
receivership on November 12, 2010. This was before the SBA's denial decision had been
finalized. The FDIC does not recognize claims that were unfinalized as of the date of the
receivership. Therefore, the SBA has no recourse against the FDIC.

DIG Response


The SBA's comments are responsive to the recommendation.

Recommendation 2


Notify the OIG of any denial, repair or withdrawal of the guaranty on the loan made to
   [Ex. 4]              which was reviewed by the SBA and warrants a possible recovery of
$1,330,708, plus interest.

Management Comments

The SBA fully agreed with our recommendation. The SBA made a notation in the chron system
advising the NGPC to provide notice on any denial, repair, withdrawal or cancellation of
guaranty resulting from the identified deficiencies to the OIG. The NGPC is also currently
reviewing additional documentation the lender recently submitted to overcome the identified
deficiencies. If the documentation provided by the lender does not overcome the stated
deficiencies, the NGPC will request recovery from the lender. The OFPO will provide an update
to the OIG by May 31, 2012.

DIG Response

The SBA's comments and proposed actions are responsive to the recommendation.



                                                    8

Recommendation 3

Establish a specialized unit of well-trained, highly experienced loan specialists to perform
purchase reviews with the level of scrutiny necessary to identify all material deficiencies on
early-defaulted loans approved for $500,000 or more.

Management Comments


The SBA partially agreed with our recommendation. The SBA stated that the OFPO and NGPC
take seriously the need to allocate resources most effectively so that purchase reviews of high
dollar loans are conducted consistent with policy, procedures and regulations, and sufficient to
identify all material deficiencies on early-defaulted loans approved for $500,000 or more. The
SBA also noted that the OFPO and NGPC must determine the means by which this will be
accomplished while balancing the other vital work of the center. Furthermore, the SBA stated
that addressing this recommendation will involve some reallocation of resources, staff training,
staff skill augmentation, SOP changes, and internal controls. The OFPO and NGPC have begun
the process of making these changes, and believe the process will be completed by September
30,2012.

DIG Response

The SBA's comments are responsive to the recommendation. We will monitor the SBA's actions
during the audit follow-up process to determine if the appropriate level of scrutinty is occurring
on early defaulted loans approved for $500,000 or more.

Recommendation 4

Expand the scope of the NGPC quality control reviews of early-defaulted loans to include a
thorough review of eligibility and use of proceeds.

Management Comments

The SBA fully agreed with our recommendation. The NGPC has recently incorporated the early­
default quality control review into its all-encompassing random quality control reviews to
ensure all applicable SBA policies and procedures are addressed during the purchase review
process.


DIG Response

The SBA's comments and actions taken are responsive to the recommendation.

Recommendation 5

Seek recovery of $15,188, plus interest, from Pacific Mercantile Bank on the guaranty paid by
the SBA for the loan to [Ex. 4]



                                                     9

Management Comments


The SBA fully agreed with our recommendation. The NGPC will notify the lender of the
deficiency by April 3D, 2012 and request repayment of $15,188 related to this deficiency by June
30,2012.


DIG Response

The SBA's comments and proposed actions are responsive to the recommendation.

Actions Required

Please provide your management response for each recommendation on SBA Forms 1824,
Recommendation Action Sheet, within 30 days from the date of this memorandum. Your
responses should identify the specific actions taken or planned to fully address each
recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access during this audit.
If you have any questions concerning this memorandum, please call me at 202-205-7390 or
Terry Settle, Director, Credit Programs Group at 703-487-9940.


                                               ***
/S/ Original Signed

John K. Needham
Assistant Inspector General for Auditing




                                                     10 

Appendix I. Loans with Material Deficiencies Identified by the OIG"

                                      Deficiency
       loan       Borrower     loan                          Deficiency             Approved     Questioned
 #                                    Type (See
      Number       Name        Type                          Description             Amount        Costs
                                       legend)
                                                        1) The lender did not
                                                        adequately verify the
                                                        source of $164,900 of
                                                        equity allegedly
                                                        injected into the
                                                        business.
                                                        2) The legitimacy of two
 1    [Ex. 4]      [Ex. 4]      PLP      A,D            promissory notes is         $1,782,000   $1,445,021 '
                                                        questionable.
                                                        3) Documentation in
                                                        the loan file showed
                                                        that the 25% owner of
                                                        the selling corporation
                                                        was also a manager of
                                                        the buying company.

                                                        1) The lender did not
                                                        adequately verify and
                                                        document the source
 2    [Ex. 4]      [Ex. 4]      PLP       D                                         $1,700,000   $1,376,641 '
                                                        for the $1 million of
                                                        required equity
                                                        injection.
                                                        1) The SBA did not
                                                        consider the effect the
 3    [Ex. 4]      [Ex. 4]      GP         C            borrower's affiliated       $1,350,000    $763,277
                                                        business had on
                                                        repayment ability.
                                                        1) The effects of the
                                                        borrower's affiliated
                                                        businesses were not
                                                        fully considered in
                                                        determining the size
 4    [Ex. 4]      [Ex. 4]      GP       A,C,E          and repayment ability       $1,290,000   $1,161,000'
                                                        of the borrower.
                                                        2) The SBA purchased
                                                        this loa n at a higher
                                                        guaranty percentage
                                                        than authorized.
                                                        1) A portion of the loan
                                                        refinanced debt
 5    [Ex. 4]      [Ex. 4]      CLP        B
                                                        originally used for floor
                                                                                    $1,074,000    $191,702'

                                                        plan financing.
                                                        1) The lender did not
                                                        appropriately ensure
                                                        that the loan proceeds
 6    [Ex. 4]      [Ex. 4]     EWCP        B                                        $1,000,000    $106,802'
                                                        were used as required
                                                        in the loan
                                                        authorization.


                                                        1) Approximately
                                                        $15,000 was used to
 7    [Ex. 4]      [Ex. 4]                              payoff an IRS federal
                                PLP        B                                         $810,000     $15,188'
                                                        tax lien on withholding
                                                        taxes.

                                                        1) The lender's cash
 8    [Ex. 4]      [Ex. 4]      PLP        C
                                                        flow analysis did not
                                                                                     $675,000     $506,250



                                                 11 

                                                   Deficiency
              loan        Borrower        loan                        Deficiency              Approved     Questioned
       #                                           Type (See
             Number        Name           Type                        Description              Amount        Costs
                                                    legend)
                                                                  consider the impact the
                                                                  two affiliated
                                                                  businesses would have
                                                                  on the borrower's
                                                                  repayment ability.
                                                                  1) The lender did not
                                                                  properly verify the
                                                                  accuracy of the seller's
                                                                  financial information as
                                                                  required in a change of
                                                                  ownership transaction.
       9     [Ex. 4]        [Ex. 4]        PLP         A          2) The project lacked        $632,000      $37,696
                                                                  feasibility because the
                                                                  borrower paid more for
                                                                  the business than it was
                                                                  worth due to an
                                                                  inadequate business
                                                                  valuation.
                                                                  1) The lender's credit
                                                                  analysis did not
                                                                  demonstrate a
                                         Patriot
       10    [Ex. 4]        [Ex. 4]      Express
                                                       c          reasonable assurance of      $500,000      $373,532
                                                                  repayment/the
                                                                  projections were
                                                                  unreasonable.
            Totals                                                                           $10,813,000   $5,977,109


    Deficiency Type Legend:
        A. Eligibility
        B. Use of Proceeds
        C. Repayment Ability
        D. Equity Injection
        E. Improper Guaranty Amount


1\ 	  Questioned costs amounts were determined as of audit report issuance and may not reflect the
      amounts that will actually be recovered by the SBA as a result of the audit follow-up process.
*   	 Loans with errors made by the NGPC during purchase reviews.




                                                           12 

Appendix II. Loans with Material Deficiencies Identified by the SBA


                                                                         SBA's Share of the
                                             Deficiency
        loan                         loan                  Approved         Outstanding
 #                   Borrower Name           Type (See
       Number                        Type                   Amount      Balance at Purchase
                                              legend)
                                                                              Review
 1      [Ex. 4]           [Ex. 4]     GP           A,B,C   $1,500,000        $1,336,089

 2      [Ex. 4]           [Ex. 4]     GP           A,B     $1,500,000        $1,330,708

 3      [Ex. 4]           [Ex. 4]     PLP           D,E    $1,500,000        $1,339,171


 4      [Ex. 4]           [Ex. 4]     PLP           A       $900,000         $668,636

     Totals                                                $5,400,000       $4,674,604

Deficiency Type Legend:
    A. Use of Proceeds
    B. Equity Injection
    C. Site Visit
    D. Eligibility
    E. Loan Maturity




                                            13 

Appendix III. Agency Response




                                            u.s. SMALL BUSINESS ADMINISTRATION
                                                      WASHINGTON,     D.C. 20416




                                                MEMORANDUM 

                                                 March 19, 2012 



To:        Peter L. McClintock
           Deputy Inspector General

From:      John A. Miller
           Director, Office of Financial Program Operations

Subject:   Response to Draft Advisory Memorandum on the High-Dollar Early-Default Loans
           Require an Increased Degree of Scrutiny and Improved Quality Control at the
           National Guaranty Purchase Center, Project No. 10508B

Thank you for the opportunity to review the draft report. We appreciate the role of the Office of
Inspector General (OIG) plays in assisting management in ensuring that these programs are
effectively managed.

The draft report is the final in a series of memorandums related to the OIG's audit of twenty-five
purchased 7(a) Early-Defaulted Recovery Act loans. The report summarizes the OIG's work
completed on the twenty-five loans and also serves to inform SBA of the need for an increased
degree of scrutiny and improved quality control on high-dollar early-defaulted loans at the
National Guaranty Purchase Center (NGPC).

The OIG noted concerns with the level of scrutiny NGPC loan specialists provide during
purchase reviews of high-dollar early-defaulted loans. The OIG attributed the current level of
scrutiny to NGPC's focus on production, lack of training, and loan specialists' unfamiliarity with
SBA program requirements and purchase review responsibilities. Office of Financial Program
Operations (OFPO) and NGPC recognize the importance training plays in ensuring loan
specialists possess the knowledge and skills necessary to perform all purchase reviews with the
utmost scrutiny while maintaining productivity standards. OFPO and NGPC plan to provide
credit underwriting training to all NGPC purchase review staff. In addition, OFPO's quality
control program offers monthly training sessions to all purchase review staff, and provides both
general and individualized feedback based on quality control review results. OFPO and NGPC
are confident the training and feedback provided to loan specialists will enhance their knowledge
and skill in detecting material deficiencies in high-dollar early-defaults.
                                                14
The OIG also noted concerns with the scope ofNGPC's early default quality control review
process. The OIG's concerns revolved around the lack of evaluation for lender compliance with
SBA eligibility and use ofloan proceeds during the NGPC's review of 183 early-defaulted loans
between May 9, 2011 and August 9, 2011. SBA agrees that the quality control review for early­
defaulted loans should include evaluation of lender compliance with eligibility and use of loan
proceeds requirements. NGPC has recently incorporated early-default quality control review
measures into the existing random quality control review for all applicable loans. Therefore, all
early-defaulted loans sampled for quality control review now undergo evaluation for lender
compliance with SBA eligibility and use ofloan proceeds in addition to a thorough review of the
lender credit memorandum, including repayment ability, support for equity injection and
verification of financial information with IRS tax transcripts.


Management's response to the recommendations in the draft report is noted as follows:


1.     Notify the OIG ofany denial, repair or withdrawal ofthe guaranty on the loan made to
     [Ex. 4]                  which was reviewed by the SBA and warrants a possible recovery
of $1,336,089, plus interest.


OFPO concurs with this recommendation. Servicing of this loan was assumed by FDIC after the
originating lender was closed and placed into receivership on November 12, 2010, and before the
SBA's denial decision had been finalized. FDIC does not recognize claims that were not
finalized as of the date of the receivership. Therefore, SBA has no recourse against FDIC.


2.     Notify the OIG ofany denial, repair or withdrawal ofthe guaranty on the loan made to
     [Ex. 4]               which was reviewed by the SBA and warrants a possible recovery of
$1,330,708, plus interest.


OFPO concurs with this recommendation and is in the process of taking the following actions:

A notation was made in the chron system advising the NGPC to provide notice on any denial,
repair, withdrawal or cancellation of guaranty resulting from the identified deficiencies to Office
ofInspector General. NGPC is currently reviewing additional documentation the lender recently
submitted to overcome the identified deficiencies. If the documentation provided by the lender
does not overcome the stated deficiencies, NGPC will request recovery from the lender. OFPO
will provide an update to the OIG by May 31,2012.




                                                15 

3.      Establish a specialized unit ofwell-trained, highly experienced loan specialists to
perform purchase reviews with the level ofscrutiny necessary to identify all material
deficiencies on early-defaulted loans approvedfor $500,000 or more.


OFPO partially concurs with this recommendation and plans to take the following actions:

OFPO and NGPC take seriously the need to allocate resources most effectively so that purchase
reviews of high dollar loans are conducted consistent with policy, procedures and regulations,
sufficient to identify all material deficiencies on early defaulted loans approved for $500,000 or
more. OFPO and NGPC must determine the means by which this will be accomplished while
balancing all of the other vital work of the center. This will involve some reallocation of
resources, staff training, staff skill augmentation, SOP changes, and internal controls. OFPO and
NGPC have begun the process of making these changes, and believe the process will complete
by September 30,2012.


4.     Expand the scope ofthe NGPC quality control reviews ofearly-defaulted loans to
include a thorough review ofeligibility and use ofproceeds.


OFPO concurs with this recommendation.

NGPC has recently incorporated the early-default quality control review into its all­
encompassing random quality control reviews to ensure all applicable SBA policies and
procedures are addressed during the purchase review process.


5.     Seek recovery of $15,188, plus interest, from   Pac~fic   Mercantile Bank on the guaranty
paid by the SBAfor the loan to    [Ex. 4]



NGPC concurs with this recommendation and agrees the portion of loan proceeds used to pay
delinquent IRS withholding taxes was an ineligible use of loan proceeds. NGPC will notify the
lender of the deficiency by April 30, 2012 and request repayment of $15, 188 related to this
deficiency by June 30, 2012.


Again, thank you for the opportunity to review the draft report. Please let us know if you need
additional information or have any questions regarding our response.




                                                16 

